                                                OFFICE OF INSPECTOR GENERAL
                                                                        MEMORANDUM




DATE:          January 6, 2003

TO:            Chairman

FROM:          Inspector General

SUBJECT: Report on Government Information Security Reform Act Evaluation - Findings
         and Recommendations

The Office of Inspector General (OIG) has completed an evaluation of the Commission’s
Information Security program in accordance with the Government Information Security Reform
Act (Security Act). The Security Act requires that Inspectors General, or the independent
evaluators they choose, perform an annual evaluation of each agency’s information security
program and practices. We contracted with KPMG, LLP to perform the independent evaluation.

On September 16, 2002, we issued a report, entitled “FY 2002 Government Information Security
Reform Act (GISRA) Independent Evaluation,” summarizing the results of our independent
evaluation. As a result of the independent evaluation, we have concluded that the Commission
has a generally effective information security program with acceptable practices for managing
and safeguarding the Federal Communications Commission’s (FCC’s) information technology
assets. Our report, comprised of an executive summary and an independent evaluation, was
included in a package of information provided by the Commission to the Office of Management
and Budget (OMB) on September 16, 2002.

During the independent evaluation, we identified areas for improvement in the FCC’s
information security management, operational and technical controls. The evaluation identified
eight (8) findings in the areas of management, operational, and technical controls. Additionally,
we determined that eight (8) of the conditions identified during the FY 2001 GISRA evaluation
had not been fully corrected at the time of audit fieldwork. In our opinion, implementation of
our recommendations and correction of the conditions identified in the FY 2001 evaluation
report will strengthen the security of the Commission’s information security program. These
findings are addressed in the attached report, entitled “Report on FY 2002 Government
Information Security Reform Act Risk Assessment and Evaluation,” (Report No. 02-AUD-02-
06). This report is a byproduct of the independent evaluation required by the Security Act.
Our recommendations will correct present problems and minimize the risk that future security
problems will occur in the FCC’s information security program. All recommendations contained
in the attached report will be tracked for reporting purposes by the OIG. Appendix A, Summary
of Findings, provides a summary of the findings from this review. Appendix B, Detailed
Findings and Recommendations, details the findings and recommendations from the review.

In its response dated December 9, 2002, the Office of Managing Director (OMD) indicated
concurrence with each with each of the findings and recommendations. For all findings, OMD
outlined the corrective action taken and/or a milestone schedule for implementation of corrective
action. We have included a copy of the response from OMD in its entirety as Appendix C to this
report.

Due to the sensitive nature of the information contained in the appendices, we have marked them
all “Non-Public – For Internal Use Only” and have limited distribution. Those persons receiving
this report are requested not to photocopy or otherwise distribute this material.




                                      H. Walker Feaster III

Attachment

cc:    Chief of Staff
       Managing Director
       Chief Information Officer
       Computer Security Officer
       AMD-PERM
 Federal Communications Commission
      Office of Inspector General




FY2002 Government Information Security Reform Act
   Evaluation – Findings and Recommendations



               Report No. 02-AUD-02-06
                   January 6, 2003
                     TABLE OF CONTENTS

                                                                     Page

EXECUTIVE SUMMARY                                                      2

BACKGROUND                                                             3

OBJECTIVE                                                              4

SCOPE                                                                  5

OBSERVATIONS                                                           6

APPENDIX A          Summary of Findings                              A-1


APPENDIX B          Detailed Findings & Recommendations              B-1


APPENDIX C          Response from the Office of Managing Director,
                    Dated December 9, 2002                           C-1




                                 1
Executive Summary

The Government Information Security Reform Act (“GISRA” or “Security Act”) was
signed into law as part of the Fiscal Year (FY) 2001 Defense Authorization Act (Public
Law 106-398). The Security Act amended the Paper Reduction Act of 1995 by adding a
new subchapter on information security. The Security Act, which became effective on
November 30, 2000, applies to all Federal agencies.

A key provision of the Security Act requires that, beginning in Fiscal Year (FY) 2001,
agency Offices of Inspector General (OIG), or independent evaluators, perform an annual
evaluation of the agency’s information security program and practices. The OIG engaged
KPMG, LLP to conduct the FY 2002 independent evaluation of the FCC’s information
security program and practices.

The purpose of the evaluation was to review the Commission’s security program
including, but not limited to, security policies, security architecture, business continuity,
security capital planning, critical infrastructure, and security program planning and
management. Our objective was to evaluate the effectiveness of the Commission’s
information security program by assessing the risk for each component of the program.
Audit fieldwork began on May 17, 2002 and concluded on September 15, 2002 and was
performed at FCC Headquarters, Washington, DC.

Our methodology was based upon the National Institute of Standards and Technology’s
(NIST) “Self-Assessment Guide for Information Technology Systems (Self-Assessment
Guide)”. Additional guidance was received from other NIST publications, the
methodology provided in the “Federal Information Systems Control Audit Manual
(FISCAM),” Federal Information Processing Standards (FIPS) publications, and other
laws and directives pertaining to the protection of Federal information resources.

On September 16, 2002, we issued a report, entitled “FY 2002 Government Information
Security Reform Act (GISRA) Independent Evaluation,” summarizing the results of our
independent evaluation. As a result of the independent evaluation, we have concluded
that the Commission has a generally effective information security program with
acceptable practices for managing and safeguarding the information technology assets.
On September 16, 2002, our report, comprised of an executive summary and an
independent evaluation, was included in a package of information provided by the
Commission to the Office of Management and Budget (OMB).

During the independent evaluation, we identified areas for improvement in the FCC’s
information security management, operational and technical controls. Specifically, we
identified eight (8) findings in the areas of management, operational, and technical
controls. Additionally, we determined that eight (8) of the conditions identified during
the FY 2001 GISRA evaluation had not been fully corrected at the time of audit
fieldwork.




                                               2
Prior to issuing this report, we met with FCC management and staff about the facts
comprising the conditions identified in this report. A summary of the preliminary
findings was presented to FCC management at the Key Milestone Meeting on July 1,
2002. In response, FCC management provided informal written comments on July 30,
2002, which were reviewed and considered during the preparation of this report.
Subsequent to the close of audit fieldwork, a preliminary draft of the Appendix B,
Detailed Findings and Recommendations was forwarded to FCC Management on
September 26, 2002 for additional review and comment.

On November 4, 2002, we issued a draft report summarizing the results of our audit. In
that draft document, we requested that the Office of the Managing Director (OMD)
respond to the findings and recommendations presented in our report. In its response
dated December 9, 2002, OMD indicated concurrence with each with each of the findings
and recommendations. For all findings, OMD outlined the corrective action taken and/or
a milestone schedule for implementation of corrective action. We have included a copy
of the response from OMD in its entirety as Appendix C to this report.

This report contains non-public information. In accordance with the Commission’s
directive on the Management of Non-Public Information (FCCINST 1139), we have
classified all appendices as “Non-Public – For Internal Use Only.” Recipients of this
report are expected to follow the established policies and procedures for managing and
safeguarding the non-public information contained in this report as outlined in FCCINST
1139.


Background

On October 30, 2000, the President signed into law the FY 2001 Defense Authorization
Act (P.L. 106-398) including Title X, subtitle G, “Government Information Security
Reform Act” (GISRA). GISRA amended the Paperwork Reduction Act (PRA) of 1995
by adding a new subchapter on “Information Security” and applies to all Federal
Agencies. The effective date of GISRA was November 30, 2000.

A key provision of GISRA requires agency Offices of Inspector General perform an
annual evaluation of the agency’s information security program. GISRA also permits the
OIG to select an independent evaluator to perform this evaluation. KPMG, LLP was
engaged to perform the fiscal year (FY) 2002 independent evaluation.

The “Self-Assessment Guide for Information Technology Systems (Self-Assessment
Guide)” issued by the National Institute of Standards and Technology (NIST) provided
the framework for our methodology. As appropriate, we followed guidance prescribed
by the “Federal Information Security Control Audit Manual (FISCAM).” We obtained
additional guidance from other NIST publications, Federal Information Processing
Standards (FIPS) publications, as well as other laws and directives pertaining to the
protection of Federal information resources as listed below:




                                           3
   Presidential Decision Directive (PDD) 63, entitled “Critical Infrastructure
    Protection.”
   PDD-67, entitled “Continuity of Operations Planning (COOP)”.
   OMB Circular A-130, entitled “Management of Federal Information Resources,” as
    revised on November 30, 2000, including Appendix III, “Security of Federal
    Automated Information Resources.”
   OMB Circular A-123, entitled “Management Accountability and Control.”
   OMB Circular A-127, entitled “Financial Management Systems”
   OMB M-01-08, entitled “Guidance on Implementing the Government Information
    Security Reform Act,” dated January 16, 2001.
   OMB M-01-24, entitled “Reporting on the Government Information Security Reform
    Act,” dated June 22, 2001.
   OMB M-02-09, entitled “Reporting Instructions for the Government Information
    Security Reform Act and Updated Guidance on Security Plans of Action” dated July
    2, 2002.
   OMB M-97-02, entitled “Funding Information Systems Investments.”
   OMB M-97-16, entitled “Information Technology Architectures.”
   Federal Emergency Management Agency’s Federal Preparedness Circular 65,
    “Federal Executive Branch Continuity of Operations (COOP)”.
   The Computer Security Act of 1987 (PL 100-235).
   NIST 800-3, entitled “Establishing a Computer Security Incident Response Capability
    (CSIRC).”
   NIST 800-5, entitled “Guide to the Selection of Anti-Virus Tools and Techniques.”
   NIST 800-12, entitled “An Introduction to Computer Security, The NIST Handbook.”
   NIST Publication 800-13, entitled “Telecommunications Security Guidelines for
    Telecommunications Management Network.”
   NIST 800-14, entitled “Generally Accepted Principles and Practices for Securing IT
    Systems”.
   NIST 800-18, entitled “Guide for Developing Security Plans for IT Systems.”
   FIPS Publication 73, entitled “Guidelines for Security of Computer Applications.”
   FIPS Publication 112, entitled “Password Usage.”
   FCC Instruction 1479.2, “Computer Security Program Directive.”

Our procedures were designed to comply with applicable auditing standards and
guidelines, specifically the Generally Accepted Government Auditing Standards
(GAGAS).


Objective

Our objective was to evaluate the effectiveness of the Commission’s information security
program by assessing the risk for each component of the program. The specific
objectives of this review were as follows:

1. Obtain an understanding of the Commission’s Information Technology (IT)
   infrastructure.



                                           4
2. Obtain an understanding of the Commission’s information security program and
   practices.

3. Use the GISRA security assessment (i.e. NIST Self-Assessment Guide and FISCAM)
   tools to evaluate the effectiveness of the Commission’s information security program
   and assess risk for each component of the program. At a minimum, the assessment
   was required to include identification and ranking of the critical information system
   threats to the FCC IT infrastructure on a risk vulnerability basis.

4. Prepare the annual submission in accordance with the OMB reporting requirements
   mandated under GISRA for FY 2002. In addition to preparing the annual submission,
   the contractor was required to provide a detailed report that (1) identifies and ranks
   the critical security risk factors and (2) contains observations and recommendations
   for improvements, if any.

5. Follow-up on the findings of the Fiscal Year 2001 GISRA review that are
   documented in OIG report number, 01-AUD-11-43.


Scope

The scope of our independent evaluation included the security infrastructure managed by
the Office of Managing Director’s Information Technology Center (ITC) and the
Auctions Automation Branch of the Commission’s Wireless Telecommunications
Branch.

The FY 2002 independent evaluation encompassed a review of the Commission’s
security program including, but not limited to, security policies, security architecture,
business continuity, security capital planning, critical infrastructure, and security program
planning and management.

The Security Act also requires that the OIG select an appropriate subset of agency
applications for review. Our audits of the Automated Auction System and follow-up
audit of computer control conditions at the FCC’s Consumer Center, performed earlier in
the fiscal year, satisfied this requirement. The reports on the results of these audits were
issued separately and can be found in OIG Reports 02-AUD-02-08, entitled “Report on
Audit of the Automated Auction System,” and 01-AUD-07-30, entitled “Report on
Follow-up Audit on Computer Controls at the FCC Consumer Center,” respectively.

Our observations from the independent evaluation have been organized according to the
NIST control areas of management controls, operational controls, and technical controls.
The control areas are defined below and the specific control techniques addressed by
each are outlined.

   Management Controls – Management controls focus on the management of the IT



                                              5
   security system and the management of risk for a system. They are techniques and
   concerns that are normally addressed by management. The specific management
   control objectives addressed were:

   •   Risk Management
   •   Review of Security Controls
   •   Life Cycle
   •   Authorize Processing (Certification and Accreditation)
   •   System Security Plan

   Operation Controls – Operational controls address security methods focusing on
   mechanisms primarily implemented and executed by people (as opposed to systems).
   These controls are put in place to improve the security of a particular system (or
   group of systems). They often require technical or specialized expertise and often
   rely upon management activities as well as technical controls. The specific
   operational control objectives addressed were:

   •   Personnel Security
   •   Physical and Environmental Protection
   •   Production, Input/Output Controls
   •   Contingency Planning
   •   Hardware and System Software Maintenance
   •   Data Integrity
   •   Documentation
   •   Security Awareness, Training and Education
   •   Incident Response Capability

   Technical Controls - Technical controls focus on security controls that the computer
   system executes. The controls can provide automated protection for unauthorized
   access or misuse, facilitate detection of security violations, and support security
   requirements for applications and data. The specific technical operational control
   objectives addressed were:

   •   Identification and Authentication
   •   Audit Trails
   •   Logical Access Controls

Each finding has been further categorized by risk ratings of ‘High’, ‘Medium’, or ‘Low’.
In assigning ratings, we considered whether each condition, if exploited, could result in
misuse or loss FCC data, as well as the potential degree of exposure to the Commission.


Observations




                                            6
During our independent evaluation we reviewed documentation provided by the
Commission, reviewed previously performed special reviews and audits, conducted
interviews of Agency staff, and performed other activities of inquiry and observation.
Audit fieldwork began on May 17, 2002 and concluded on September 15, 2002 and was
performed at FCC Headquarters, Washington, DC.

As a result of observations from the evaluation, we have concluded that the Federal
Communications Commission is dedicated to implementing and maintaining effective
security controls aimed at protecting its information resources. Our independent
evaluation for the current fiscal year yielded several positive observations relative to the
Commission’s information security program and practices. Positive observations
included the following:

   •   FCC management has developed and implemented plans of action and milestones
       (POA&M) for each of the FY 2001 GISRA findings. Several of the prior year
       findings were determined to be fully remediated.

   •   The FCC’s IT Strategic Plan was published in final format in July of 2002. The
       plan outlines near and long-term directions for the agency’s IT architecture and
       program and sets forth goals reflecting the core mission and values of the IT
       program.

   •   In accordance with OMB Circular A-130, system security plans were developed
       for sixteen (16) of the Commission’s seventeen (17) major applications and
       general support systems. Rules of Behavior for application users were also
       developed and incorporated into each of the security plans.

   •   A Computer Security Strategic Plan is under development. The plan is intended
       to address management, operational, and technical controls, physical protection of
       information resources, and future computer security needs of the Commission.

   •   The Computer Security Office has established the Computer Security Program
       repository on the Commission’s Intranet where FCC policies, procedures,
       bulletins, and alerts on protecting agency’s computer resources are easily
       accessible to authorized users of the FCC’s information systems.

Since the prior year GISRA evaluation, the Commission has developed and published
numerous Computer Security Desk Reference Guides that provide technical procedures
for system administrators and developers for implementing the information security
program and practices. Also, existing policies and procedures, such as the FCC
Computer Security Directive, FCCINST 1479.2, have been updated as corrective
measures to address findings reported by the FY 2001 independent evaluation. While
this is noted as a positive measure, we recommend that FCC management ensure that
staff and contractors responsible for implementing all new and updated policies,
procedures, and guidelines are made aware of requirements. Where applicable,
documentation of adherence with requirements should be maintained and reviewed


                                              7
periodically by FCC management to ensure security practices are being properly
conducted.

While the Commission has implemented numerous positive controls over its computer
resources, we identified areas for improvement for management, operational, and
technical controls. Specifically, eight (8) new findings resulted from the current year’s
independent evaluation. The findings consist of three (3) findings related to management
controls, one (1) related to operations controls, and four (4) related to technical controls.
Of the eight findings, three (3) were assigned a risk rating of ‘High,’ four (4) were
designated with a risk level of ‘Medium,’ and one (1) was designated as low risk1.
Additionally, from our follow-up on FY 2001 GISRA observations, we determined that
corrective actions have not been fully implemented for eight (8) of the prior year
findings.

Appendix A provides the Summary of Findings from the independent evaluation.
Included as Appendix B is the report of Detailed Findings and Recommendations,
provides detailed information on the conditions identified, criteria used to evaluate the
condition, effect, and recommendation(s). As prescribed by OMB M-02-09, “Reporting
Instructions for the Government Information Security Reform Act and Updated Guidance
on Security Plans of Action”, a plan of action for each finding identified during the FY
2002 independent evaluation, including milestones and completion dates, should be
developed by FCC management. The plans should identify the corrective actions that the
Commission intends to take to address control areas that need strengthening and identify
any obstacles which may impede correction of deficiencies noted. Appendix B also lists
the conditions from the FY 2001 GISRA evaluation, which were determined to have an
open status from follow-up review work.

On November 4, 2002, we issued a draft report summarizing the results of our audit. In
that draft document, we requested that the Office of the Managing Director (OMD)
respond to the findings and recommendations presented in our report.

In its response dated December 9, 2002, OMD indicated concurrence with each with each
of the findings and recommendations. For all findings, OMD outlined the corrective
action taken and/or a milestone schedule for implementation of corrective action. We
have included a copy of the response from OMD in its entirety as Appendix C to this
report.

This report contains non-public information. In accordance with the Commission’s
directive on the Management of Non-Public Information (FCCINST 1139), we have
classified all appendices as “Non-Public – For Internal Use Only.” Recipients of this
report are expected to follow the established policies and procedures for managing and

1
    Each finding was evaluated to determine its degree of exposure based on the following risk ratings.
    High: Security risk can cause a business disruption, if exploited. Medium: Security risk in conjunction
    with other events can cause a business disruption, if exploited. Low: Security risk may cause operational
    annoyances, if exploited.



                                                       8
safeguarding the non-public information contained in this report as outlined in FCCINST
1139.




                                           9
